September 30, 2008

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Air Networks – Dallas Airport Mail Center
         Operations (Report Number NL-AR-08-009)

This report presents the results of our self-initiated audit of operations at the Dallas
Airport Mail Center (AMC) (Project Number 07XG013NL000). Our objectives were to
determine whether operations were efficient and economical.1 Click here to go to
Appendix A for additional information about this audit.

Conclusion

The Dallas AMC operated at lower efficiency levels as compared to national productivity
standards or similar operations at other facilities; misaligned some workhours with
workload; and performed some unnecessary work. As a result, the Postal Service
incurred costs of over $8.4 million for unnecessary workhours during the period
reviewed. The Postal Service subsequently closed the Dallas AMC on September 29,
2008, and moved most of the operations we reviewed to other facilities in the
Dallas/Fort Worth metropolitan area. Moving the operations to other facilities should
improve efficiency and reduce unnecessary workhours.

However, the Southwest Area has an opportunity to improve efficiency, reduce
unnecessary workhours, and save money for two remaining operations at the facility.
We estimate that the Southwest Area could make operations more cost effective by
phasing out over 92,500 annual workhours and save about $26.3 million over 10 years.

Productivity and Efficiency

We found some Dallas AMC operations were inefficient as compared to national
productivity standards or similar operations at other facilities, which resulted in usage of
excessive workhours. This occurred because management did not enforce standards
and productivity data was inadequate or did not exist. Consequently, managers did not
have the tools to control operations. As a result of using excessive workhours, the
Dallas AMC incurred about $3.6 million in unnecessary costs for the period reviewed.



1
 The wording of our audit objectives was modified slightly from the original announcement letter. Our initial
objectives were to determine whether operations were effective and to identify opportunities to save money.
Air Networks – Dallas Airport                                                                         NL-AR-08-009
 Mail Center Operations


Although most of these operations were moved to other locations in the Dallas/Fort
Worth metropolitan area, the Southwest Area still has opportunities to phase out about
23,495 annual workhours associated with the retail box section operation, and save
about $7 million over 10 years. Click here to go to Appendix B for our detailed analysis
of this topic.

We recommend the Vice President, Southwest Area Operations:

1. Use existing productivity standards or establish appropriate productivity standards
   for the retail box section operation that will continue at the former Dallas AMC
   facility.

2. Use productivity data to increase efficiency and approve overtime.

Overstaffed Operations

The Dallas AMC misaligned some workhours with workload. This occurred because
management did not properly schedule staff to match mail flow. Consequently, the
Dallas AMC used more workhours than necessary, resulting in unnecessary costs of
$2.3 million for idle time during our review period. Although staffing levels were reduced
and some of the operations were moved to other locations in the Dallas/Fort Worth
metropolitan area, the Southwest Area still has opportunities to phase out about 1,140
annual workhours associated with the retail box section operation, and save about
$340,000 over 10 years. Click here to go to Appendix B for our detailed analysis of this
topic.

We recommend the Vice President, Southwest Area Operations:

3. Ensure staff are only scheduled commensurate with the mail flow for the retail box
   section operations that will continue at the former Dallas AMC facility and reduce
   operational workhours.

Unnecessary Work

The Dallas AMC was performing unnecessary work to assign and tag mail2 for
transportation. As a result, the Dallas AMC incurred more than $2.5 million in
unwarranted costs for the period reviewed. This occurred because the mail was not
properly sorted via automated equipment prior to arriving at the Dallas AMC and mail
arrived late to the Dallas AMC requiring it to be re-tagged. Eliminating unnecessary
work would allow the Southwest Area to phase out about 68,000 annual workhours and
save more than $19 million over 10 years. Click here to go to Appendix B for our
detailed analysis of this topic.

2
  This operation is a manual or automated process that assigns a mailpiece to a transportation mode and applies a
dispatch and routing (D&R) tag to the mailpiece. The D&R tag is used for sorting the mailpiece to ensure it reaches
its intended destination via its intended transportation mode.




                                                         2
Air Networks – Dallas Airport                                                                            NL-AR-08-009
 Mail Center Operations



We recommend the Vice President, Southwest Area Operations:

4. Eliminate unnecessary workload by ensuring mail is assigned and tagged before
   arriving at the Dallas/Fort Worth area processing facilities and by ensuring it arrives
   on time to meet its assigned transportation.

Management’s Comments

Management agreed there were opportunities to improve efficiencies at the Dallas AMC
at the onset of the audit. However, management stated that the Dallas AMC was to be
closed on September 29, 2008,3 and most of the operations are being moved to other
facilities in the Dallas/Fort Worth metropolitan area. Management stated that operations
that are moved will realize efficiency improvements and staffing changes at the gaining
plants. As a result, management stated recommendations 1-3 and the draft report’s
monetary impacts associated with the recommendations, with the exception of the box
section remaining at the former Dallas AMC, have been overtaken by events and are no
longer applicable.

Regarding recommendation 4, management stated that the scanning and tagging mail
operation must be performed at a plant and not at the feeder location. Management
intends to move the workhours associated with the function to the plants that will take
on the function formerly performed at the Dallas AMC. Management’s comments, in
their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1-3 and
the actions taken for moving operations to other facilities and improving efficiencies for
the retail box operation that will remain at the location should resolve the issues
identified.

The OIG does not consider management’s comments on recommendation 4
responsive. During our review of the operation, we determined that many feeder
locations had the capability of automatically tagging the mail before sending it to the
Dallas AMC. This finding would apply even if the mail was sent from other locations for
processing. Therefore, we still consider our recommendation appropriate and will
pursue its disposition through our formal audit resolution process. We will also work
with management to validate the projected savings after issuance of the report.

Based on management’s comments and subsequent events, we have updated our
report as well as adjusted our recommendations and monetary impact from our draft

3
 While most operations and positions were moved to other locations and the facility no longer should be considered
an AMC, there will be minimal operations that will continue at the facility, including the retail box section, customs,
and ramp operations.




                                                           3
Air Networks – Dallas Airport                                              NL-AR-08-009
 Mail Center Operations


report. We will report a total of $34,766,897 in monetary impact in our Semiannual
Report to Congress, including $8,437,430 in questioned costs and $26,329,467 in funds
put to better use.

The OIG considers recommendation 4 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that it can be
closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Katherine S. Banks




                                          4
Air Networks – Dallas Airport                                                      NL-AR-08-009
 Mail Center Operations


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service air transportation network includes AMCs located at airports
nationwide. Depending on the size of these installations, they are sometimes called
Airport Mail Facilities (AMFs) or Air Transport Offices (ATOs). Their principal or “core”
mission is to:

    •   Receive mail from the Postal Service ground transportation network and
        distribute that mail to commercial air carriers for airport-to-airport transportation.

    •   Monitor mail in air carriers’ possession and supervise air carriers’ mail handling
        operations during aircraft loading and unloading.

    •   Recover mail from air carriers and redistribute it for further transportation.

In addition to “core operations,” some AMCs perform other functions normally
associated with mail processing facilities or local post offices. These functions include
mail sorting, retail operations, and post office (PO) delivery boxes. During fiscal year
(FY) 2007, the Postal Service spent about $429 million to operate AMCs.




              Non-core AMC operations
               include manually sorting
             Express Mail. These manual
             sorting functions usually are
               performed at processing
                       facilities.

               Express Mail Operation –
                     Dallas AMC




Events in recent years have reduced operational requirements for AMCs. For example:

        The AMC Standardization Initiative – In FY 2005, the Postal Service began
        standardizing AMCs. This effort included eliminating collateral activities normally
        associated with other facilities such as processing plants or POs and restricting
        the AMCs’ mission to core functions.




                                               5
Air Networks – Dallas Airport                                                     NL-AR-08-009
 Mail Center Operations


        The Integrated Air Strategy – In January 2006, Postal Service management
        formalized a nationwide integrated air strategy. Management explained that
        passenger airlines were not as reliable as the Postal Service needed them to be
        and that under the new strategy, the Postal Service would reduce reliance on
        passenger airlines and expand existing cargo air transportation. Finally, officials
        explained that the strategy would affect the mission of AMCs because in the
        future, contractors would perform AMC core operations, thereby reducing or
        eliminating the need for AMCs. In July 2006, the Postal Service formally
        announced that it was considering outsourcing the principal AMC core functions -
        the tender and receipt of mail.


           American Airlines
              was one of the
           airlines providing
             reliable on-time
            performance and
            when the Postal
          Service contract with
              passenger air
            carriers expired,
           American Airlines
              was one of the
               carriers they
          selected to continue.
            American Airlines
             mail containers,
            Dallas-Fort Worth
          International Airport.

        As a result of the AMC standardization initiative, the integrated air strategy, and
        the resulting reduced reliance on passenger airlines, by January 2008, 56 AMCs
        had been converted to ATOs or closed, and only about 20 AMCs - including the
        Dallas AMC - remained in the Postal Service air transportation network.

        The Dallas AMC - The Dallas AMC was located at Dallas/Fort Worth International
        Airport. When Postal Service domestic transportation contracts with passenger
        airlines expired without renewal, Dallas/Fort Worth-based American Airlines was
        selected to continue to support the Postal Service. American Airlines operates
        its principal national hub at Dallas/Fort Worth and carries more mail than any
        other passenger airline serviced by the Dallas AMC.

        In addition to core AMC functions, the Dallas AMC provided some sorting
        operations normally associated with processing plants, and conducted some
        activities normally associated with local post offices. The local PO activities
        included such functions as providing customer retail windows and PO boxes.
        Our initial plans to audit AMCs included the Dallas AMC because Headquarters
        Network Operations officials identified it as one of the facilities that would not be
        converted to an ATO or closed. However, during our audit, officials from the




                                               6
Air Networks – Dallas Airport                                                    NL-AR-08-009
 Mail Center Operations


        Postal Service Dallas District explained that the AMC land lease would expire in
        2009, and consequently, they planned to move “non-core” functions to other
        regional facilities as of September 29, 2008. About 370 employees worked at the
        Dallas AMC as of the end of FY 2007, and the Postal Service spent about $30
        million annually to operate the facility.

OBJECTIVES, SCOPE, AND METHODOLOGY

This report is the second in a series of reports on Postal Service air network operations.
We evaluated whether Dallas AMC operations were effective and economical.

We interviewed officials from Postal Service Headquarters Network Operations, the
Southwest Area and the Dallas District. Also, we visited the Dallas/Fort Worth
International Airport and the Dallas AMC. We interviewed supervisors and employees,
and we observed and photographed operations.

We examined relevant Postal Service policies and procedures and other related
documents, including:

    •   The Postal Service’s commercial air contracts with passenger airlines,
        announced on September 29, 2006.

    •   The Postal Service’s Integrated Air Strategy, dated January 9, 2006.

    •   The original FedEx contract, dated January 10, 2001, and the renegotiated
        FedEx contract, dated July 31, 2006.

    •   The United Parcel Service contract dated June 26, 2006.

Using computer-assisted analysis techniques, we examined Postal Service
computer-generated data, and we used the data to analyze mail volume, expenditures,
and productivity. We conducted the analysis to determine if management could
improve processes and, as a result, reduce workhours and labor costs. We did not
audit or comprehensively validate the data; however, we noted several weaknesses that
constrained our work. For example, the Dallas AMC did not routinely compile workhour
data for its processing operations according to standard procedures for Postal Service
mail processing facilities and Dallas AMC operations were not held to nationally
established processing productivity standards.

Nonetheless, we supported our audit conclusions by applying alternate audit
procedures. For example, to compensate for inadequate workhour data and
productivity standards, we used nationally established standards when available,
examined source documents, and consulted with subject matter experts such as the
Postal Service’s activity-based costing group. We also observed, inspected, and
photographed operations, and applied reasonable estimates or approximations.




                                            7
Air Networks – Dallas Airport                                                             NL-AR-08-009
 Mail Center Operations


In order to validate our analytical assumptions, observations, and conclusions, we
routinely talked to senior management officials throughout our audit, asked for their
feedback, considered their perspective, and included their comments where
appropriate. We also applied conservative principles to our workhour and cost
reduction estimates.

We conducted work associated with this performance audit from December 2006
through September 2008 in accordance with generally accepted government auditing
standards and included such tests of internal controls as we considered necessary
under the circumstances. Those standards require that we plan and perform audit work
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

PRIOR AUDIT COVERAGE

The U.S. Postal Service Office of Inspector General (OIG) previously issued the
following AMC reports with efficiency findings similar to those contained in this report.

                                                                                           Monetary
                                                                                            Impact
                 Report Title                       Report Number   Final Report Date    (in millions)
Efficiency Review of the Los Angeles, California,
                                                     NL-AR-06-006   September 12, 2006         $192.0
Worldway Airport Mail Center
Air Networks – Airport Mail Center Operations –
                                                     NL-AR-07-001   December 22, 2006          $107.0
Atlanta




                                                       8
Air Networks – Dallas Airport                                                                        NL-AR-08-009
 Mail Center Operations


                                APPENDIX B: DETAILED ANALYSIS

Productivity and Efficiency

Some Dallas AMC operations were inefficient at the time of our review as compared to
national productivity standards and to similar operations at other AMCs, which resulted
in using excessive workhours. This occurred because management did not establish
and enforce standards4 and productivity data was inadequate or did not exist.
Therefore, managers did not have the tools to effectively control operations. As a
result, the AMC used excessive workhours to perform the work and incurred about $3.6
million in unnecessary costs.

     The Dallas AMC houses a Customer
            Service Box Section.

    This is a non-core AMC operation that
     typically has productivity standards
               associated with it.

 Our analyses of the operations revealed
that employees were not fully engaged or
 idle, and opportunities exist to improve
    efficiency and reduce workhours.

    The operation was managed to ensure
      clearance times were met, and not
        according to staff productivity.


The excessive workhours and associated costs that we identified for calendar year (CY)
2006 were as follows.

                                                     Unnecessary       Unnecessary
                                 Operation              Hours             Costs
                             Box Section5                 22,552          $908,381
                             SPBS5                           656             26,440
                             Platform6                    25,180            968,161
                             Ramp6                        19,938            851,764
                             Overtime7                    28,025            894,280
                              Total                       96,351         $3,649,026

In addition, based on observations conducted at the Dallas AMC, we found employee
productivity could improve. Specifically, we found cases of limited accountability for
4
  The Postal Service measures productivity based on national standards for pieces of mail processed per workhour.
However, at AMCs, the Postal Service does not use nationally established standards. Postal Service officials explain
that instead of evaluating AMC performance using nationally established productivity standards, they evaluate AMC
performance based on adherence to budget.
5
  Excess workhours determined by analyzing actual performance against national productivity standards for
operations. SPBS is a small parcel bundler sorter.
6
  Excess workhours determined by analyzing actual performance against similar facilities (AMCs) since no national
standards existed for these types of operations.
7
  Excess workhours based on unjustified need for overtime.




                                                         9
Air Networks – Dallas Airport                                                  NL-AR-08-009
 Mail Center Operations


work performed; employees who worked overtime for no apparent reason; some
employees who were idle or not fully engaged; and some employees performing
functions that seemed unnecessary. For example, we observed employees who were
spending time to verify that machine pre-sorted and bundled mail was properly sorted.

As of September 29, 2008, management closed the Dallas AMC, reduced ramp clerk
staffing levels, and moved the other operations (with the exception of the retail box
section) to other facilities in the Dallas/Fort Worth metropolitan area. Moving the
operations to other facilities should improve efficiency and reduce unnecessary
workhours. For example, management stated that some manual sort operations would
be automated at the gaining facilities, which would reduce staff hours needed for the
operations.

However, we believe the Southwest Area still has an opportunity to improve efficiency
by phasing out about 23,495 annual workhours for the retail box section operation and
save about $7 million over 10 years. Click here to go to Appendix C for a breakdown of
unnecessary costs (questioned costs) and projected workhour reductions and savings
(funds put to better use) associated with this finding.

Overstaffed Operations

The Dallas AMC misaligned some workhours with workload. As a result, the Dallas
AMC used more workhours than necessary and incurred about $2.3 million in
unnecessary costs during our review. This occurred because management did not
properly schedule staff to match mail flow. For example:

    •   Ramp Clerk Staffing – We analyzed activities of ramp clerks and identified time
        periods during which ramp clerks had limited to no work responsibilities, yet were
        charging workhours to ramp operations. As a result, during CY 2006, the Dallas
        AMC unnecessarily used over 13,000 ramp clerk workhours. Local managers
        acknowledged that there are no guidelines or standards for the number of clerks
        or workhours needed, agreed there were too many ramp clerks, and explained
        that they were finding other ways to keep the clerks productive.

    •   PO Box Staffing – We compared the actual work schedules of employees that
        put mail into customer PO boxes against the operational times needed to perform
        that function. We determined Dallas AMC managers frequently assigned staff
        when no PO box mail or work requirement existed. As a result, during CY 2006,
        the Dallas AMC unnecessarily used more than 1,100 work hours on the PO box
        function.

    •   Express Mail Staffing – During our observations and interviews with supervisors,
        we compared the staff assigned to sort Express Mail with the actual work time
        needed to perform the function. We noted Dallas AMC managers frequently
        assigned staff to sort Express Mail when there was very little Express Mail.




                                            10
Air Networks – Dallas Airport                                                 NL-AR-08-009
 Mail Center Operations


        Consequently, we analyzed CY 2006 Express Mail staff workhours during non-
        peak operational hours and concluded that the Dallas AMC unnecessarily used
        more than 29,500 workhours on the Express Mail sorting function.



    Express Mail outbound
 operations at the Dallas AMC
 have established critical entry
and clearance times as 2045 and
             2105.

    Through observations and
 discussions, we determined that
the majority of mail was available
  for the operation beginning at
 1800, yet employees were on the
      clock as early as 1450.




The unnecessary workhours and associated costs that we identified for CY 2006 are as
follows.

                                                      Excess      Excess
                                    Operation         Hours        Costs
                                Ramp                    13,049    $534,264
                                Retail Box Section       1,141       45,458
                                Express Mail            29,536    1,184,408
                                Guard Posts             13,130      500,509
                                 Total                  56,856   $2,264,639

As of September 29, 2008, management closed the Dallas AMC, reduced staffing levels
for ramp operations, moved Express Mail operations to other facilities in the Dallas/Fort
Worth metropolitan area, and eliminated the guard posts. These actions should result
in improved operational effectiveness.

However, we believe the Southwest Area still has an opportunity to improve
effectiveness and reduce unnecessary workhours, if managers properly aligned work
schedules with peak workhours for the retail box section operation that will remain at the
location. We estimate management could phase out about 1,140 annual workhours and
save about $340,000 over 10 years. Click here to go to Appendix C for a breakdown of
unnecessary costs (questioned costs) and projected workhour reductions and savings
(funds put to better use) associated with this finding.




                                                     11
Air Networks – Dallas Airport                                                                     NL-AR-08-009
 Mail Center Operations


Unnecessary Work

The Dallas AMC was performing unnecessary work resulting in 68,000 excess annual
workhours and more than $2.5 million in unnecessary costs in CY 2006. We concluded
that Dallas AMC performed unnecessary work to apply dispatch and routing tags to mail
pieces in the AAA/SWYB/Rapistan8 operations and sort the mail pieces to intended
modes of transportation. For example:

    •     Employees performed tagging and sorting work that regional processing facilities
          or local business mailers were equipped to perform and should have performed
          before they sent the mail to the Dallas AMC.

    •     Employees performed tagging and sorting work because regional processing
          facilities and local business mailers were late in sending mail to the Dallas AMC.

    •     Employees performed manual work rather than using the automated equipment.

These conditions existed because local managers were not ensuring that mail either
was sorted and tagged prior to arrival at the Dallas AMC, or arrived on time. In addition,
management allowed manual processing of some mail pieces when automated
equipment was available to process it at other facilities.9


        Volumes of First-Class Mail®
         trays for a large business
         mailer waiting to be tagged
          for transportation at the
                 Dallas AMC.

           The mail should arrive
            already tagged since
        equipment is provided to the
             mailer for doing so.



If Southwest Area management eliminated unnecessary work, the Postal Service could
phase out about 68,000 annual workhours and save more than $19 million over
10 years. Click here to go to Appendix C for a breakdown of unnecessary costs
(questioned costs) and projected workhour reductions and savings (funds put to better
use) associated with this finding.




8
  AAA/SWYB/Rapistan are automated or manual operations that apply D&R tags to mail pieces and sort the mail for
transportation.
9
  Some of the feeder locations which could automatically tag mail were large business mailers including Charles
Schwab and Pitney Bowes PSI.




                                                       12
Air Networks – Dallas Airport                                                   NL-AR-08-009
 Mail Center Operations


Postal Service Actions During our Audit

During our audit, management acknowledged that constant changes in the air
transportation network resulted in overstaffing, and management began to take action to
address some of the issues we identified and reduce operational costs. In addition,
after our audit began, officials significantly reduced the level of operations at the Dallas
AMC. Management’s actions included:

    •   Increasing supervision and oversight by senior management.

    •   Transferring certain mail preparation operations to regional processing plants.

    •   Aligning some work schedules with peak workload hours.

    •   Reducing the number of assigned ramp clerks.

We met with management on June 20, 2008, to discuss our audit results and the impact
of the changes at the Dallas AMC on our findings and recommendations. Management
commented that the planned Dallas AMC changes would provide savings opportunities.
For example, management stated that they had already moved some operations from
the Dallas AMC into local processing plants and the operations would now be measured
through the Breakthrough Productivity Initiative to help ensure efficiency.




                                             13
Air Networks – Dallas Airport                                                                         NL-AR-08-009
 Mail Center Operations



                APPENDIX C: SUMMARY OF QUESTIONED HOURS/COSTS
                 AND PROJECTED WORKHOUR REDUCTIONS/SAVINGS


                                      SUMMARY BY ISSUE AREA*
                                                                Projected Workhour Reductions
                         Questioned        Questioned                                                 Projected
     Issue Area          Workhours           Costs                Immediate         Over 5 Years       Savings

Productivity and
Efficiency                       96,351      $3,649,026                    943            22,552         $6,981,520

Overstaffed
Operations                       56,856      $2,264,639                       75           1,066             339,842

Unnecessary
Work                             67,894      $2,523,765                 11,976            55,918         19,008,105

 Total (rounded)                221,100    $ 8,437,43010               12,99411          79,53612      $26,329,46713
* This was adjusted based on the closure of the Dallas AMC on September 29, 2008.

                                       SUMMARY BY OPERATION
                                                                Projected Workhour Reductions
                           Questioned       Questioned                                                Projected
       Operation           Workhours          Costs               Immediate         Over 5 Years       Savings

SPBS                               2,343        $83,283                       n/a            n/a                    n/a

Box Section                       24,636        985,630                  1,018            23,618         $7,321,362

Express                           29,536      1,184,408                       n/a            n/a                    n/a

Platform                          47,222      1,656,028                       n/a            n/a                    n/a

Ramp                              36,339      1,503,807                       n/a            n/a                    n/a

SWYB/AAA/Rapistan                 67,894      2,523,765                 11,976            55,918         19,008,105

Guard Posts                       13,130        500,509                       n/a            n/a                    n/a

 Total (rounded)                221,100      $8,437,430                 12,994            79,536        $26,329,467
n/a – not applicable since Postal Service closed the Dallas AMC as of September 29, 2008.




10
   Represents unrecoverable questioned costs
11
   Hours reduced immediately since requires no Full Time Equivalent (FTE) reduction
12
   Hours reduced over 5 years to allow for attrition since requires FTE reduction
13
   Represents funds put to better use. Standard OIG practice for calculations of this type employs a 10-year cash
flow methodology, discounted to present value by applying factors published for this purpose by Postal Service
Headquarters Finance.




                                                           14
Air Networks – Dallas Airport                               NL-AR-08-009
 Mail Center Operations


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                       15
